U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Curtis Ward v. United States of America,
S.Ct. No. 20-6582

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 3,
2020, and placed on the docket on December 9, 2020. The government’s response is due on
January 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6582
WARD, CURTIS
USA

AMY B. CLEARY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
411 E. BONNEVILLE AVE.
STE. 250
LAS VEGAS, NV 89101
702-338-6577
AMY_CLEARY@FD.ORG

